           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      INDIRECT COSTS CLAIMED
      BY THE TEXAS DISABILITY
      DETERMINATION SERVICES

     January 2009   A-06-08-18092




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                         SOCIAL SECURITY
MEMORANDUM


Date:   January 26, 2009                                                                    Refer To:

To:     Ramona Schuenemeyer
        Regional Commissioner
          Dallas

From:   Inspector General

Subject: Indirect Costs Claimed by the Texas Disability Determination Services (A-06-08-18092)



        OBJECTIVE

        Our objective was to determine whether the indirect costs claimed by the Texas
        Disability Determination Services (TX-DDS) for Federal Fiscal Years (FY) 2006 and
        2007 were allowable and properly allocated.

        BACKGROUND

        The Disability Insurance (DI) program was established in 1954 under Title II of the
        Social Security Act (Act). The DI program provides benefits to wage earners and their
        families in the event the wage earner becomes disabled. In 1972, Congress enacted
        the Supplemental Security Income (SSI) program under Title XVI of the Act. The SSI
        program provides benefits to financially needy individuals who are aged, blind, or
        disabled.

        The Social Security Administration (SSA) is responsible for implementing policies for the
        development of claims under the DI and SSI programs. Disability determinations under
        both DI and SSI are performed by disability determination services (DDS) in each State
        in accordance with Federal regulations. 1 In carrying out its obligation, each DDS is
        responsible for determining claimants’ disabilities and ensuring adequate evidence is
        available to support its determinations. SSA reimburses the DDS for 100 percent of
        allowable expenditures up to its approved funding authorization. 2 Allowable



        1
         20 Code of Federal Regulations (C.F.R.) part 404, subpart Q (April 2004), and part 416, subpart J
        (April 2004).
        2
            20 C.F.R. §§ 404.1626 and 416.1026.
Page 2 – Ramona J. Schuenemeyer


expenditures include both direct and indirect costs. 3 At the end of each quarter of the
FY, each DDS submits a Form SSA-4513, State Agency Report of Obligations for SSA
Disability Programs, to account for program disbursements and unliquidated obligations.
The Texas Department of Assistive and Rehabilitative Services (TX-DARS) was created
in March 2004 and serves as the DDS’ parent agency. Parent agencies often provide
State-designated DDS administrative services, such as accounting and procurement.
Costs associated with these services are referred to as indirect costs. Federally
assisted programs bear their fair share of indirect costs except where restricted or
prohibited by law. 4 Federal cost standards state that expenditures may be allocated to
a particular program if the goods or services are charged in accordance with the relative
benefits received. 5 TX-DARS allocates indirect costs to each of its four Divisions:
Division for Rehabilitation Services (DRS), Division for Blind Services (DBS), Early
Childhood Intervention (ECI), and TX-DDS.

Each year, TX-DARS prepares and submits an Indirect Cost Rate Proposal to the
U.S. Department of Education (DOE), the cognizant Federal agency, for approval. The
indirect cost rate proposal is prepared based on the actual costs incurred 2 FYs prior.
For example, the FY 2007 proposal was prepared based on actual costs from FY 2005.
The total actual indirect costs are allocated from various indirect cost pools based on a
predetermined set of allocation bases, such as the percentage of accounting
transactions processed, full-time equivalent (FTE) employees assigned, or “Other
Operating Expenses” incurred. The total indirect costs allocated from all cost pools are
divided by the total actual direct costs incurred during the same period, resulting in the
indirect cost rate. Current year indirect costs are then determined by applying the
approved rate multiplied by the current year’s direct costs.

A contractor prepared TX-DARS’ initial indirect cost proposal for FY 2006 based on
actual financial data from FY 2004. Upon recommendation of the cognizant agency,
TX-DARS simplified its methodology and presentation format for the FY 2007 proposal.
The FY 2007 proposal was based on FY 2005 actual data, which was the first full year
of TX-DARS’ operation. We focused our review on the FY 2007 proposal since it was
the first TX-DARS proposal based on a full year of its operations. SSA reimbursed
$12.5 million for FY 2006 indirect costs and $11.8 million for FY 2007 indirect costs.
TX-DARS’ FY 2009 indirect cost rate proposal allocates approximately $12.2 million in
indirect costs to TX-DDS. See Appendix B for additional background information and
Appendix C for our audit scope and methodology.



3
  Direct costs can be identified with a particular cost objective (Office of Management and Budget [OMB]
Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments, Attachment A, § E.1).
Indirect costs arise from activities common to multiple programs but not readily assignable to these
programs without effort disproportionate to the results achieved (OMB Circular A-87,
Attachment A, § F.1).
4
    OMB Circular A-87, paragraph A.1.
5
    OMB Circular A-87, Attachment A, § C.3.a.
Page 3 – Ramona J. Schuenemeyer


RESULTS OF REVIEW

Indirect costs claimed for reimbursement under SSA’s disability programs were
generally allowable and were paid in accordance with the cost rates approved by the
cognizant agency. However, TX-DARS allocated indirect costs to TX-DDS in amounts
that were not equitable in consideration of the relative benefit received. TX-DARS
allocated costs to TX-DDS based on the percentage of accounting transactions
processed, FTEs assigned, or “Other Operating Expenses” incurred when these
allocation bases had little or no relation to the relative benefits received by TX-DDS.
Use of this methodology resulted in cost allocations from TX-DARS cost pools in
proportions significantly greater than TX-DDS’ share of TX-DARS’ budget.

Based on discussions with key TX-DARS personnel and our review of available
information, the TX-DARS allocation methodology resulted in approximately $2.2 million
in excessive indirect costs charged to TX-DDS in FY 2007. As long as TX-DARS
continues to use a similar indirect cost allocation methodology, excessive indirect cost
allocations will continue to be allocated to TX-DDS. We estimate use of the current
indirect cost allocation methodology will result in approximately $3.3 million in excessive
indirect cost allocations to TX-DDS in FY 2009.

TX-DARS’ INDIRECT COST ALLOCATION METHODOLOGY

TX-DARS used three primary methods of allocating indirect costs to TX-DDS from its
various cost pools. Based on the type of costs in a specific cost pool, it is reasonable to
use a method for one cost pool that is different from other cost pools. However, the
method chosen for a specific cost pool should make a reasonable allocation of the costs
in that cost pool relative to the benefits received by the programs.

The three primary methods TX-DARS used to allocate indirect costs to its Divisions
were based on percentage of accounting transactions processed, FTEs assigned, or
“Other Operating Expenses” incurred. The chart below provides the percentage of the
budget as well as the applicable TX-DARS allocation percentages for FY 2005 (used to
calculate the indirect cost rate applied in FY 2007).

          FY 2005 Percentage of Budget, Accounting Transactions, FTEs
              And “Other Operating Expenses” by TX-DARS Division
                                      Accounting                     “Other Operating
      Division          Budget       Transactions         FTEs          Expenses”
        DRS              40.7%           37.4%            47.0%           25.0%
        DBS               9.9%            7.8%            18.9%           15.1%
        ECI              29.7%            1.8%             1.3%            3.2%
        DDS              19.7%           53.0%            32.8%           56.7%
       Total            100.0%          100.0%           100.0%          100.0%
Page 4 – Ramona J. Schuenemeyer


Use of the three allocation methodologies outlined in the chart above resulted in cost
allocations that were significantly greater than TX-DDS’ share of TX-DARS’ budget.
Specifically, TX-DDS represented about 20 percent of the $514 million TX-DARS
budget. However, TX-DDS was allocated between 33 and 57 percent of the indirect
costs from the indirect cost pools. In contrast, ECI represented about 30 percent of
TX-DARS’ budget but received allocations of only 3.2 percent or less from TX-DARS’
indirect cost pools.

Allocations Based on Number of Accounting Transactions

In calculating the FY 2007 indirect cost rate, TX-DARS allocated about $1.6 million of its
FY 2005 Accounting Department costs to TX-DDS based on the percentage of
accounting transactions processed. Primarily as the result of a large number of
low-dollar fees paid for medical record reviews, approximately 53 percent of the
transactions processed by the TX-DARS Accounting Department in FY 2005 were
TX-DDS transactions. Therefore, TX-DARS allocated approximately 53 percent of its
Accounting Department costs to TX-DDS. Allocation of these costs based on a
percentage of accounting transactions processed appeared equitable considering the
relative benefits received by TX-DDS.

However, TX-DARS also used the percent of accounting transactions processed to
allocate $2.1 million in costs associated with the Comptroller of Public Accounts, the
Chief Financial Officer (CFO), Internal Audit, and State Auditor cost pools. Allocation of
these cost pools to TX-DDS based on the percentage of accounting transactions
processed resulted in SSA paying more than its fair share of indirect costs.

   The Comptroller of Public Accounts cost pool consists of costs passed to TX-DARS
    by the Comptroller of Public Accounts through the Statewide Cost Plan. The
    Comptroller is the chief steward of the State’s finances, acting as tax collector, chief
    accountant, chief revenue estimator and treasurer for all of the State government.
    We found nothing to indicate the number of accounting transactions processed by
    TX-DDS affected the Comptroller of Public Accounts’ operating expenses.
    Therefore, allocating these costs based on accounting transaction percentage was
    not justified. Instead, allocating these costs based on budget percentage was
    justified and would more closely align the sharing of these costs with the benefits
    received.

   The CFO cost pool includes the costs incurred to operate the CFO’s office. The
    CFO manages the TX-DARS budget and financial operations and is responsible for
    establishing and monitoring policies and procedures for budget, accounting, cash
    management, contract management, grants management, and financial reporting.
    The CFO stated that his office represented all four TX-DARS Divisions equally, and
    its operating costs were not driven by the number of accounting transactions
    processed by TX-DARS Divisions. Because the number of accounting transactions
    processed by TX-DDS has no correlation with the CFO’s operating costs, allocation
    of the CFO cost pool based on the percentage of accounting transactions is not
Page 5 – Ramona J. Schuenemeyer


    equitable. Allocation of these costs based on budget percentage or an equal
    sharing of these costs among the four TX-DARS Divisions can be justified and would
    more closely align the sharing of these costs in accordance with the relative benefits
    received. TX-DDS’ fair share of these costs should not exceed 25 percent.

   A review of audit reports published by both the Internal Audit Department and the
    State Auditor’s Office during FYs 2006 and 2007 indicated that neither department
    had issued any audit reports specifically related to TX-DDS. This clearly
    demonstrates that the level of support these departments provide TX-DDS has no
    relationship to the number of accounting transactions processed by TX-DDS. It also
    demonstrates that allocating these costs on the basis of accounting transactions
    results in a disproportional cost allocation to TX-DDS. Indirect costs from these
    departments should be allocated on the basis of budget percentage.

                              Excess Indirect Costs Allocated to TX-DDS
                         on the Basis of Number of Accounting Transactions
                                       Actual Allocation
                                           Based on            Proposed       Revised
                                         Accounting            Allocation     TX-DDS
             Cost Pool                  Transactions             Basis       Allocation      Difference
    Comptroller of Public Accounts        $1,132,425            Budget       $420,628         $711,797
    Chief Financial Officer                  808,254             Equal        $392,344        $415,910
    Internal Audit                           275,037            Budget         105,377         169,660
    State Auditor                            174,456            Budget          66,840          107,616
                              Totals      $2,390,172                          $985,189      $1,404,983


Use of the accounting transactions to allocate these cost pools resulted in SSA paying
approximately $1.4 million more than its fair share of indirect costs in FY 2007. This
methodology will continue to result in excessive indirect cost allocations to TX-DDS in
FY 2009 and later FYs if the methodology is not changed.

Allocations Based on FTE Employees

In calculating the FY 2007 indirect cost rate, TX-DARS allocated about $2.4 million of its
FY 2005 Lump Sum Termination Pay, Post Retirement Health Benefits, Media Services,
Records Management, Library, 6 Facilities Leasing and Management, and Warehouse
costs to TX-DDS based on the percentage of assigned FTEs. Approximately
32 percent of TX-DARS employees are assigned to TX-DDS. As a result, TX-DARS
allocated approximately 32 percent of these costs to TX-DDS. Allocation of these costs
based on FTEs appeared equitable considering the relative benefits TX-DDS received.




6
 Based on diminished need for, as well as increased availability of, these services from other sources,
effective for FY 2009 indirect cost proposal, Library costs will no longer be allocated to TX-DDS.
Page 6 – Ramona J. Schuenemeyer


However, TX-DARS also used the FTE percentage to allocate $2.6 million in costs
associated with operating 11 additional cost pools to TX-DDS. Use of this allocation
methodology resulted in SSA paying more than its fair share of indirect costs.

   The Director of Operations, Center for Program Coordination, Commissioner,
    Deputy Commissioner, and Chief Operating Officer cost pools provide direction,
    coordination, and administration to all TX-DARS activities. Review of available
    documentation and discussions with TX-DARS staff indicated the level of support
    provided to TX-DDS did not depend on the number of employees assigned to
    TX-DDS. Instead, these departments represented TX-DARS, as a whole, and
    supported its Divisions equally. Therefore, allocating these costs to TX-DDS on the
    basis of FTEs was not equitable and resulted in TX-DDS bearing more than its fair
    share of costs.

   The Budget section provides financial information and technical assistance to
    effectively expend available funds, project funding needs, and maximize available
    resources. Responsibilities include preparing the annual operating budget;
    monitoring budget coding, budget revisions, and budget transactions for compliance;
    reviewing fiscal implications, proposed rules, and cost estimates; and reporting on a
    variety of financial information. Instead of allocating Budget Department costs
    based on the percentage of the budget expended in each of its four Divisions,
    TX-DARS allocated the costs based on the number of assigned FTEs. However, the
    number of FTEs assigned to TX-DDS bears no relationship to the level of support
    provided by the Budget section. Allocating Budget section expenses to TX-DDS
    based on FTEs instead of budget percentage was not equitable. Allocation of these
    costs based on budget percentage would align the sharing of these costs in
    accordance with the relative benefits received.

   For five additional cost pools, we found no relationship between the number of FTEs
    and the actual support provided to TX-DDS. We found nothing to indicate the level
    of support provided by these cost pools varied in relation to the number of
    employees in each of TX-DARS’ four Divisions. Instead, these pools appeared to
    represent TX-DARS, as a whole, and support its Divisions equally.

     The Legal Services section interprets and drafts laws, regulations, and legal
      opinions; coordinates agency litigation with the Office of the Attorney General;
      prosecutes and adjudicates administrative enforcement matters; reviews
      contracts; and liaisons with the Secretary of State for Texas Register filings of
      rules and meeting notices.

     The Program Reporting and Analysis section is responsible for providing
      information and analysis to assist TX-DARS management in reporting program
      performance to Federal and State agencies, the State legislature, and interested
      stakeholders; and in evaluating of the effectiveness of TX-DARS operations.
Page 7 – Ramona J. Schuenemeyer


    The Center for DARS Policy develops, evaluates, disseminates, and provides
     assistance regarding program administrative policy and procedures and ensures
     that Department policies comply with Federal and State policies.

    The Center for Consumer and External Affairs provides a central contact for
     public and stakeholder input and the acquisition of information on TX-DARS
     policies, procedures, and services. The Center coordinates the referral of
     inquiries to the appropriate TX-DARS Division, serves as the liaison for
     governmental affairs, tracks legislation affecting TX-DARS programs, develops
     public awareness activities and maintains stakeholder relations.

    Attorney General costs include legal costs billed by the State Attorney General’s
     Office to TX-DARS on the Statewide Cost Allocation Plan.

                            Excess Indirect Costs Allocated to TX-DDS
                            on the Basis of Number of FTE Employees
                                     Actual Allocation Proposed       Revised
                                        Based on       Allocation     TX-DDS
            Cost Pool                     FTEs           Basis       Allocation   Difference
  Director of Operations                 $732,795        Equal       $578,298      $154,497
  Program Coordination                    503,495        Equal        397,341       106,154
  Budget                                  346,105       Budget        215,121       130,984
  Legal Services                          304,642        Equal        240,413        64,229
  Program Reporting and Analysis          297,320        Equal        234,635        62,685
  Commissioner                            123,645        Equal         97,577        26,068
  DARS Policy                               95,586       Equal         75,433        20,153
  Deputy Commissioner                       61,243       Equal         48,331        12,912
  Chief Operating Officer                   60,538       Equal         47,774        12,764
  Consumer and External Affairs             49,414       Equal         38,996        10,418
  Attorney General                          27,294       Equal         21,539         5,755
                            Totals      $2,602,077                  $1,995,458     $606,619


Based on our review of information provided by TX-DARS, we did not find a relationship
between the number of FTEs assigned to TX-DDS and the level of support provided by
these cost pools. Use of FTE percentage to allocate these cost pools resulted in SSA
paying approximately $607,000 more than its fair share of indirect costs in FY 2007.
This methodology will continue to result in excessive indirect cost allocations to TX-DDS
in FY 2009 and later FYs if the methodology is not changed.

Allocations Based on “Other Operating Expenses”

In calculating the FY 2007 indirect cost rate, TX-DARS allocated about $500,000 of its
FY 2005 Buyer Support Services and Historically Underutilized Business
Services (HUBS) costs to TX-DDS based on the percentage of total “Other Operating
Page 8 – Ramona J. Schuenemeyer


Expenses.” Types of expenses TX-DARS classifies as “Other Operating Expenses”
include postage, contracted temporary services, furnishings and equipment, and
building maintenance and repair. Using this methodology, TX-DARS allocated more
than 50 percent of the costs associated with operating Buyer Support Services and
HUBS to TX-DDS.

                      Excess Indirect Costs Allocated to TX-DDS
              on the Basis of Percentage of “Other Operating Expenses”
                           Actual Allocation    Proposed      Revised
                            Based on “Other     Allocation    TX-DDS
       Cost Pool          Operating Expenses”     Basis      Allocation   Difference
 Buyer Support Services         $448,481         Budget       $251,911    $196,570
 HUBS                            52,941          Budget         29,737      23,204
                 Totals        $501,422                       $281,648    $219,774


Based on the information provided by TX-DARS, we found nothing to indicate the use of
“Other Operating Expenses” as an allocation basis had any relation to the level of
support these cost pools provided TX-DDS. Therefore, allocation of these cost pools
based on the percentage of “Other Operating Expenses” was not equitable and resulted
in SSA paying approximately $220,000 more than its fair share of indirect costs in
FY 2007. This methodology will continue to result in excessive indirect cost allocations
to TX-DDS in FY 2009 and later FYs if the methodology is not changed. Allocation of
these costs based on the budget percentage can be justified and would more closely
align the sharing of these costs in accordance with the relative benefits received.

TX-DARS FY 2009 INDIRECT COST PROPOSAL

Based on our review of FY 2007 indirect costs, TX-DARS’ cost allocation methodology
resulted in TX-DDS bearing more than its fair share of TX-DARS’ indirect costs. Review
of TX-DARS FY 2009 indirect cost proposal indicated TX-DARS continued to use the
accounting transaction percentage, FTE percentage, and “Other Operating Expenses”
percentage as the bases for allocating indirect costs to TX-DDS. As shown in the table
below, we estimate that application of this allocation methodology will result in
approximately $3.3 million in excessive indirect cost allocations to TX-DDS in FY 2009.
If the methodology is not changed, it could result in approximately $9.8 million in
excessive costs over the next 3 FYs.
Page 9 – Ramona J. Schuenemeyer



                                   Excess Indirect Costs Allocated to TX-DDS
                                Based on TX-DARS FY 2009 Indirect Cost Proposal
                                          FY 2009        FY 2009     Proposed
                                         Allocation     Expected     Allocation     Revised
             Cost Pool                     Basis        Allocation     Basis       Allocation    Difference
    Chief Financial Officer 7           Transactions   $2,515,232    Trans/Equal    $2,084,469    $430,763
    Comptroller of Public Accounts      Transactions     948,352       Budget         378,444      569,909
    Internal Audit                      Transactions     332,552       Budget         132,706      199,846
    State Auditor                       Transactions      56,657       Budget          22,609       34,048
    HHSC Enterprise Oversight              FTEs         1,465,745      Budget         882,079      583,666
                     8                     FTEs                        Equal          770,080      294,066
    Commissioner                                        1,064,146
    Budget                                 FTEs          461,874       Budget         277,954      183,920
                                    9      FTEs                        Equal          312,248      119,236
    Staff and Operations Support                         431,484
    Program Reporting and
                                           FTEs                        Equal          212,433       81,121
    Analysis                                             293,554
    Chief Operating Officer                FTEs          260,942       Equal          188,834       72,109
    Legal Services                         FTEs          226,943       Equal          164,230       62,713
    Program Support                        FTEs           91,610       Equal           66,295       25,316
    Buyer Support Services              Other Op Exp     747,599       Budget         313,634      433,965
    Facilities Management               Other Op Exp     263,740        FTEs          183,860       79,880
    Contract Monitoring and Risk        Other Op Exp     229,988        FTEs          160,330       69,658
    HUBS                                Other Op Exp      39,923       Budget          16,571       23,352
                     FY 2009 Totals                    $9,430,341                  $6,166,776    $3,263,568




7
  Combines Chief Financial Officer and Accounting Department cost pools that appeared on the FY 2007
indirect cost proposal.
8
  Combines Commissioner, Deputy Commissioner, Center for Policy & Innovation, Center for Consumer
and External Affairs, and Center for Program Coordination cost pools that appeared on the FY 2007
indirect cost proposal.
9
 Combines Staff Operations, Support Services, and Central Buyer cost pools that appeared on the
FY 2007 indirect cost proposal.
Page 10 – Ramona J. Schuenemeyer


CONCLUSION AND RECOMMENDATION
Indirect costs claimed for reimbursement under SSA’s disability programs were
generally allowable and paid in accordance with the cost rates approved by the
cognizant agency. However, TX-DARS allocated indirect costs to TX-DDS in amounts
that were not equitable in consideration of the relative benefit received. TX-DARS
allocated costs to TX-DDS based on the number of accounting transactions processed,
number of FTE employees assigned, or percentage of “Other Operating Expenses”
incurred when these allocation bases had little or no relation to the level of support the
cost pools actually provided to TX-DDS. Use of the current TX-DARS allocation
methodology resulted in approximately $2.2 million in excessive indirect cost allocations
to TX-DDS in FY 2007, and we estimate that continued use of the current methodology
will result in approximately $3.3 million in excessive indirect cost allocations in FY 2009.
Further, if the methodology is not changed, it could result in approximately $9.8 million
in excessive costs over the next 3 FYs.

We recommend SSA ensure TX-DDS bears no more than its fair share of indirect costs
by working with TX-DARS and DOE to develop and implement a methodology that
allocates indirect costs in accordance with the relative benefits received by TX-DDS.

AGENCY COMMENTS
SSA agreed with our recommendation and will work with TX-DARS and DOE to
implement the necessary changes. See Appendix D for the full text of SSA’s
comments.

TX-DARS COMMENTS
TX-DARS agreed with the premise of our recommendation and stated it would work with
the cognizant agency to allocate indirect costs in accordance with the relative benefits
received. TX-DARS also provided several observations indicating either agreement or
disagreement with specific proposed changes to allocation bases discussed in the
report and stated its belief that percentage of budget is not a legitimate basis for
allocating indirect costs. TX-DARS noted that implementation of all the allocation
changes discussed in the report would result in a shifting of costs from SSA to the DOE,
which would reduce funds available for DOE programs. TX-DARS believes this would
result in removal of fewer SSI claimants from SSA rolls because fewer DOE dollars
would be available to put Texans with disabilities to work. See Appendix E for the full
text of TX-DARS’ comments.
Page 11 – Ramona J. Schuenemeyer


OIG RESPONSE

We appreciate the comments from SSA and TX-DARS. We are encouraged that both
parties indicated willingness to develop and implement a methodology that will better
allocate indirect costs to SSA in accordance with the relative benefits received.

TX-DARS stated it found no evidence to support use of “budget” as an allocation basis.
TX-DARS cited experts who stated they had never seen budget percentage used as a
legitimate allocation basis and said the OMB Circular A-87 Implementation Guide shows
no such basis. We point out the Guide also states the bases listed are “suggestions
only” and that “Any method of distribution can be used which will produce an equitable
distribution of cost.” We continue to believe that percentage of budget is a method of
allocation that would produce more equitable distributions of various
TX-DARS indirect cost pools (for example, Budget, Internal Audit, State Auditor) than
methods currently employed.

TX-DARS stated that implementation of the proposed allocation basis changes would
shift costs from SSA to DOE resulting in a decrease in DOE funds currently used for
various client services. However, we reiterate that federally assisted programs are
required to bear their fair share of indirect costs. Implementing the changes suggested
in the report will help ensure SSA pays only its fair share of indirect costs and no longer
subsidizes other State and/or Federal programs.



                                                     S
                                                     Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Background
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – Texas Department of Assistive and Rehabilitative Services Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                           Appendix A

Acronyms
ACT        Social Security Act
CFO        Chief Financial Officer
C.F.R.     Code of Federal Regulations
DBS        Division for Blind Services
DDS        Disability Determination Services
DI         Disability Insurance
DOE        Department of Education
DRS        Division for Rehabilitation Services
ECI        Early Childhood Intervention
FTE        Full-Time Equivalent
FY         Fiscal Year
HUBS       Historically Underutilized Business Services
OIG        Office of the Inspector General
OMB        Office of Management and Budget
SSA        Social Security Administration
SSI        Supplemental Security Income
TX-DARS    Texas Department of Assistive and Rehabilitative Services
TX-DDS     Texas Disability Determination Services


Form
SSA-4513   State Agency Report of Obligations for SSA Disability Programs
                                                                                                    Appendix B

Background
The Texas Department of Assistive and Rehabilitative Services (TX-DARS) allocates
indirect costs to each of its four Divisions: Division for Rehabilitation Services, Division
for Blind Services, Early Childhood Intervention, and Disability Determination Services,
all headed by the Commissioner of TX-DARS. The following chart provides an overview
of TX-DARS’ organizational structure.

                                     TX-DARS Organization Chart

                                                          DARS
                                                       Commissioner




                                     DARS Council                                        DARS Deputy
                                                                                         Commissioner




                                                                 Center for Policy &      Center for       Center for Program
                                                                    Innovation           Consumer &          Coordination
                                                                                        External Affairs




                                         Director
                                      Internal Audit




 Chief Operating   Chief Financial     Rehabilitation            Blind Services        Early Childhood        Disability
     Officer           Officer        Services (DRS)                 (DBS)              Intervention       Determination
                                                                                       Services (ECI)      Services (DDS)
                                                                      Appendix C

Scope and Methodology
We reviewed the indirect costs reported by the Texas Department of Assistive and
Rehabilitative Services (TX-DARS) and its component, the Texas Disability
Determination Services (TX-DDS), on its State Agency Report of Obligations for SSA
Disability Programs (Form SSA-4513) for Federal Fiscal Years (FY) 2006 and 2007.
For the items tested, we reviewed TX-DARS’ and TX-DDS’ compliance with applicable
laws and regulations over the allowability of indirect costs.

To accomplish our objective, we:

   Reviewed applicable sections of Office of Management and Budget Circular A-87,
    the Code of Federal Regulations, the Social Security Administration’s (SSA)
    Program Operations Manual System, and TX-DDS’ Cost Allocation Plan.

   Interviewed employees from TX-DARS and TX-DDS.

   Examined the indirect costs incurred and claimed by TX-DARS.

   Reviewed the supporting documentation used to formulate the three allocation
    bases for distributing costs to TX-DDS.

   Reviewed actual indirect costs, by appropriation, for FY 2005, further examining
    selected high-dollar line items. The FY 2005 data were used in formulating the
    indirect cost rate for the FY 2007 cost proposal.

   Reconciled costs reported by TX-DARS on its Form SSA-4513 for FYs 2006 and
    2007 to the related accounting records.

   Reviewed work papers and source documentation used in preparing the indirect cost
    proposal for FYs 2006 and 2007.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. We performed our audit from February through September 2008 at
TX-DDS and TX-DARS in Austin, Texas, and at the SSA regional office in
Dallas, Texas.
                                                                                               Appendix D

Agency Comments

             Wednesday, December 24, 2008
Subject:     Dallas Reply: Signed Draft Report (A-06-08-18092) - Indirect Costs Claimed by the Texas Disability
             Determination Services

Pat,

We appreciate the opportunity to comment on the Signed Draft Report (A-06-08-
18092) - Indirect Costs Claimed by the Texas Disability Determination Services. We
would like to thank the OIG Audit staff in the Dallas Region for the excellent manner in
which they were able to organize and perform this audit. We appreciate their efforts to
keep all parties informed of their progress during the course of the audit.

Our response to the recommendation contained in the narrative report is as follows:

    OIG Recommendation: We recommend the SSA ensure TX-DDS bears no more
    than its fair share of indirect costs by working with TX-DARS and the Department of
    Education to develop and implement a methodology that allocates indirect costs in
    accordance with the relative benefits received by TX-DDS.

    Response: We concur with this recommendation. We will work with Texas-DARS
    and the Department of Education to implement the necessary changes.

If members of your staff have any questions, please have them call Irving Wilkerson at
214-767-3126 in Management and Operations Support, Center for Disability.

Ramona
                                    Appendix E

Texas Department of Assistive and
Rehabilitative Services Comments
E-1
E-2
E-3
E-4
E-5
                                                                                          Attachment B

From: Elise d'Auteuil [mailto:Elise_dAuteuil@mgtamer.com]
Sent: Thursday, October 23, 2008 7:30 PM
To: McKay, David; elise_dauteuil@mgtofamerica.com
Cc: Wheeler, Bill; Dawson, James; Lavallee, Anita; Joel Nolan
Subject: RE: Process for Compiling SWCAP document

Hi David,

We have used total accounting transactions to allocate the Fund Accounting, USAS and Treasury
Accounting functions of the Comptroller’s Office.

We have used a modified accounting transaction count (that excludes retirement warrants and child
support warrants) to allocate the Claims section of the Comptroller’s Office.

We would take the position that the services provided by the Comptroller are more extensive than a
“disbursing service” and that it is, in fact, an accounting service. ASMB C10 recommends accounting
transactions as the allocation method for accounting services.

The Dallas based Division of Cost Allocation (that reviews and approves this SWCAP) scrutinized the
allocation of the Comptroller’s cost several years ago when they happened to be focused on increasing
costs/allocations going to the Title IVD program. The current methods of identifying cost pools and using
transactions counts as the allocation statistic resulted from that round of negotiation with DCA.

This wouldn’t be the first time we have found a grantor agency taking exception to what DCA has
approved, but we are constrained by what DCA will approve.

Please let me know if you need additional information.

Elise d'Auteuil
MGT of America, Inc.


From: McKay, David [mailto:David.McKay@dars.state.tx.us]
Sent: Thursday, October 23, 2008 2:35 PM
To: elise_dauteuil@mgtofamerica.com
Cc: Wheeler, Bill; Dawson, James; Lavallee, Anita
Subject: Process for Compiling SWCAP document

Elise,
The SSA OIG does not agree with “transactions” as the allocation basis we use for the Comptroller’s
costs.

Page 66 of ASMB C-10 suggests “Number of …warrants issued” as the basis for allocating the cost of
“Disbursing service”. Our position is that each warrant is a transaction.

I’d appreciate your suggestion(s) / rationale / agreement re this issue.

Thank you very much.
david mckay




                                                  E-6
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division, (214) 767-6620

   Jason Arrington, Audit Manager, (214) 767-1321

Acknowledgments

In addition to those named above:

   Warren Wasson, Senior Auditor

   Clara Soto, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-06-08-18092.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
